                                                                         OFFICE OF WORKERS’

U.S. Department of Labor                                                 COMPENSATION PROGRAMS


                           Office of Inspector General—Office of Audit




                                                                         SPECIAL REPORT RELATING TO THE
                                                                         FEDERAL EMPLOYEES’ COMPENSATION ACT
                                                                         SPECIAL BENEFIT FUND
                                                                         September 30, 2011




                                                                          This report was prepared by KPMG LLP, under contract to the U.S.
                                                                          Department of Labor, Office of Inspector General, and by acceptance, it
                                                                          becomes a report of the Office of Inspector General.



                                                                                                           __________________________
                                                                                                           Assistant Inspector General for Audit
                                                                                                           U.S. Department of Labor




                                                                                                   Date Issued: November 2, 2011
                                                                                                 Report Number: 22-12-001-04-431
                                                                               Special Report Relating to the
                                                     Federal Employees’ Compensation Act Special Benefit Fund

Table of Contents
Assistant Inspector General for Audit’s Memorandum……………………… ..........................3

1.    A.   Independent Auditors' Report on the Schedule of Actuarial Liability, Net
            Intra-Governmental Accounts Receivable and Benefit Expense........................5

      B.   Schedule of Actuarial Liability, Net Intra-Governmental Accounts
            Receivable and Benefit Expense ..........................................................................9

      C.   Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
            Accounts Receivable and Benefit Expense .......................................................11

2.    A.   Independent Accountants' Report on Applying Agreed-Upon
            Procedures ...........................................................................................................15

      B.   Schedules

             Schedule of Actuarial Liability by Agency ........................................................17

             Schedule of Net Intra-Governmental Accounts Receivable by Agency .......... 19

             Schedule of Benefit Expense by Agency ..........................................................21

      C.   Agreed-Upon Procedures and Results

             Actuarial Liability ................................................................................................23

             Net Intra-Governmental Accounts Receivable..................................................32

             Benefit Expense ..................................................................................................38

Appendix
             Acronyms and Abbreviations ............................................................................44




Prepared by KPMG LLP, for the                                                                                                     1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




   2                                                                Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

U.S. Department of Labor                               Office of Inspector General
                                                       Washington, DC 20210




November 2, 2011

                 Assistant Inspector General for Audit’s Memorandum


MEMORANDUM FOR:               FEDERAL AGENCIES WITH RESPONSIBILITIES
                              FOR THE FEDERAL EMPLOYEES’ COMPENSATION
                              ACT PROGRAM




FROM:                         ELLIOT P. LEWIS
                              Assistant Inspector General
                                for Audit

SUBJECT:                      Special Report Relating to the Federal Employees’
                              Compensation Act Special Benefit Fund – FY 2011
                              Report No. 22-12-001-04-431

Attached is the special report on the Federal Employees’ Compensation Act (FECA)
Special Benefit Fund (the Fund) that was prepared to assist in the audit of your
agency’s annual financial statements. The U.S. Department of Labor (DOL), Office of
Workers’ Compensation Programs (OWCP), administers the Fund and the DOL Office
of Inspector General (OIG) is responsible for auditing the Fund.

The OIG contracted with the independent certified public accounting firm of KPMG LLP
(KPMG) to prepare the report on the Fund as of, and for the year ended,
September 30, 2011. This special report consists of two reports. The first report is an
opinion on the Schedule of Actuarial Liability, Net Intra-Governmental Accounts
Receivable, and Benefit Expense of the Fund (the Schedule) as of, and for the year
ended, September 30, 2011. KPMG issued an unqualified opinion on the Schedule. In
connection with this audit, KPMG performed certain tests of controls and compliance
with laws and regulations related to the Fund. Their testing of controls disclosed no
instances of deficiencies in internal control over financial reporting that they consider to
be significant deficiencies and/or material weaknesses. Their testing of compliance
disclosed no instances of noncompliance or other matters that are required to be
reported under generally accepted government auditing standards.



Prepared by KPMG LLP, for the                                                                   3
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

The second report is an agreed-upon procedures (AUP) report on the Schedules of
Actuarial Liability, Net Intra-Governmental Accounts Receivable, and Benefit Expense
of the Fund by agency as of, and for the year ended, September 30, 2011. This report
includes a description of the procedures performed and the results of those procedures.
The sufficiency of the procedures referred to in the AUP is solely the responsibility of
the parties specified in this report. Consequently, neither the OIG nor KPMG makes any
representations regarding the sufficiency of the procedures. Because the AUP
performed did not constitute an audit, the auditor did not express an opinion on any
elements, accounts, or items as they pertained to the AUP report. Furthermore, neither
the OIG nor KPMG has any obligation to perform any procedures beyond those listed in
the attached report.

KPMG is responsible for the attached reports dated November 2, 2011, and the
conclusions expressed in the reports. We reviewed KPMG’s reports and related
documentation and inquired of their representatives. Our review, as differentiated from
an audit in accordance with generally accepted government auditing standards, was not
intended to enable us to express, and we do not express opinions on the actuarial
liability, net intra-governmental accounts receivable, and benefit expense of the Fund in
total as of, and for the year ended, September 30, 2011; or the AUP report on the
schedules of actuarial liability, net intra-governmental accounts receivable and benefit
expense of the Fund by agency as of, and for the year ended, September 30, 2011. Our
review disclosed no instances where KPMG did not comply, in all material respects,
with generally accepted government auditing standards.

If you have any questions or comments, please send your questions or comments via
regular mail, facsimile, or e-mail to:

               Joseph L. Donovan, Jr.
               Audit Director, Financial Statement Audits
               U.S. Department of Labor
               Office of Inspector General
               200 Constitution Ave., N.W., Room S-5512
               Washington, D.C. 20210

               Fax: (202) 693-5169
               E-mail: donovan.joseph@oig.dol.gov

Attachment




   4                                                                Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                             Special Report Relating to the
                                                   Federal Employees’ Compensation Act Special Benefit Fund




                           KPMG LLP
                           2001 M Street, NW
                           Washington, DC 20036-3389




                                                  SECTION 1A
                        Independent Auditors’ Report on the
                Schedule of Actuarial Liability, Net Intra-Governmental
                     Accounts Receivable, and Benefit Expense

Mr. Gary A. Steinberg, Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor
Government Accountability Office, Office of Management and Budget,
and Agencies Specified in Section 2B of this Report:

We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
Governmental Accounts Receivable as of September 30, 2011, and Benefit Expense for
the year ended September 30, 2011, of the U.S. Department of Labor’s (DOL) Federal
Employees’ Compensation Act Special Benefit Fund (the Schedule). The objective of
our audit was to express an opinion on the fair presentation of the Schedule. In
connection with our audit, we also considered DOL’s internal control over financial
reporting related to the Schedule and tested DOL’s compliance with certain provisions
of applicable laws and regulations that could have a direct and material effect on the
Schedule.
SUMMARY
As stated in our opinion on the Schedule, we concluded that DOL’s Schedule as of and
for the year ended September 30, 2011, is presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles.
Our consideration of internal control over financial reporting was not designed to identify
all deficiencies in internal control over financial reporting that might be deficiencies,
significant deficiencies, or material weaknesses. We did not identify any deficiencies in
internal control over financial reporting that we consider to be material weaknesses as
defined in the Internal Control Over Financial Reporting section of this report.
The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.

                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.


Prepared by KPMG LLP, for the                                                                            5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




The following sections discuss our opinion on DOL’s Schedule; our consideration of
DOL’s internal control over financial reporting; our tests of DOL’s compliance with
certain provisions of applicable laws and regulations; and management’s and our
responsibilities.
OPINION ON THE SCHEDULE
We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
Governmental Accounts Receivable as of September 30, 2011, and Benefit Expense for
the year ended September 30, 2011, of the U.S. Department of Labor’s Federal
Employees’ Compensation Act Special Benefit Fund.
In our opinion, the Schedule referred to above presents fairly, in all material respects,
the actuarial liability and net intra-governmental accounts receivable as of September
30, 2011, and benefit expense for the year ended September 30, 2011, in conformity
with U.S. generally accepted accounting principles.
INTERNAL CONTROL OVER FINANCIAL REPORTING
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or a combination of deficiencies, in internal control such that
there is a reasonable possibility that a material misstatement of DOL’s Schedule will not
be prevented, or detected and corrected on a timely basis.
Our consideration of internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify
all deficiencies in internal control over financial reporting that might be deficiencies,
significant deficiencies or material weaknesses. In our fiscal year 2011 audit, we did not
identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses, as defined above.
In our fiscal year 2010 audit, we identified a significant deficiency related to controls
over the financial reporting process. The significant deficiency was closed in fiscal year
2011 based upon management’s implementation of recommendations proposed in our
fiscal year 2010 audit.
COMPLIANCE AND OTHER MATTERS
The results of our tests of compliance as described in the Responsibilities section of this
report disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.




   6                                                                Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




RESPONSIBILITIES
Management’s Responsibilities. Management is responsible for the Schedule;
establishing and maintaining effective internal control; and complying with laws and
regulations applicable to the Schedule.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal
year 2011 Schedule based on our audit. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America and the
standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the
Schedule is free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of DOL’s internal control over financial reporting. Accordingly, we
express no such opinion.
An audit also includes:
•    Examining, on a test basis, evidence supporting the amounts and disclosures in
     the Schedule;
•    Assessing the accounting principles used and significant estimates made by
     management; and
•    Evaluating the overall Schedule presentation.
We believe that our audit provides a reasonable basis for our opinion.
In planning and performing our audit, we considered DOL’s internal control over
financial reporting by obtaining an understanding of DOL’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the Schedule, but not for the purpose of
expressing an opinion on the effectiveness of DOL’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of DOL’s
internal control over financial reporting.
As part of obtaining reasonable assurance about whether the Schedule is free of
material misstatement, we performed tests of DOL’s compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of Schedule amounts. We limited our tests of compliance to
the provisions described in the preceding sentence, and we did not test compliance with
all laws and regulations applicable to DOL. However, providing an opinion on
compliance with laws and regulations was not an objective of our audit and, accordingly,
we do not express such an opinion.
Prepared by KPMG LLP, for the                                                                   7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget,
the U.S. Congress, and those Federal agencies with responsibility for the FECA
program and is not intended to be and should not be used by anyone other than these
specified parties.



November 2, 2011




   8                                                                Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 1B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
            Schedule of Actuarial Liability and Net Intra-Governmental
        Accounts Receivable as of September 30, 2011, and Benefit Expense
                     For the Year Ended September 30, 2011

                                    (dollars in thousands)

       Actuarial Liability                                                    $ 31,342,564


       Net Intra-Governmental Accounts Receivable                              $ 5,318,229


       Benefit Expense                                                         $ 4,530,742




                             See accompanying notes to the Schedule.


Prepared by KPMG LLP, for the                                                                   9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




   10                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2011, and Benefit Expense
                     For the Year Ended September 30, 2011

1.     Significant Accounting Policies

       a.   Basis of Presentation

       The Schedule of Actuarial Liability and Net Intra-Governmental Accounts
       Receivable as of September 30, 2011, and Benefit Expense for the year ended
       September 30, 2011, of the U.S. Department of Labor’s Federal Employees’
       Compensation Act Special Benefit Fund (the Schedule) has been prepared to
       report the actuarial liability, net intra-governmental accounts receivable, and
       benefit expense of the U.S. Department of Labor’s (DOL) Federal Employees'
       Compensation Act (FECA) Special Benefit Fund (the Special Benefit Fund). The
       Special Benefit Fund was established by the Federal Employees' Compensation
       Act to provide for the financial needs resulting from compensation and medical
       benefits authorized under the Act. The DOL, Office of Workers’ Compensation
       Programs (OWCP) is charged with the responsibility of operating the Special
       Benefit Fund under the provisions of the Act. The Schedule has been prepared
       from the accounting records of the Special Benefit Fund. The actuarial liability,
       net intra-governmental accounts receivable, and benefit expense of the Special
       Benefit Fund are considered specified accounts for the purpose of this Schedule.
       OWCP is responsible for providing this information to the Chief Financial Officers
       Act of 1990 (CFO Act) agencies and other specified agencies to support the
       preparation of their respective financial statements.

       The actuarial liability of $ 31,342,564 thousand is an accrued estimate of future
       workers' compensation benefits as of September 30, 2011. Historical benefits
       paid, inflation and interest rate assumptions, and other economic factors are
       applied to the actuarial model that calculates the liability estimate. The net intra-
       governmental accounts receivable is the amount due from Federal agencies for
       benefit payments paid to or on behalf of employees of the employing agency as
       of September 30, 2011. The net intra-governmental accounts receivable includes
       amounts which were billed to the employing agencies through June 30, 2011, but
       not paid as of September 30, 2011, including prior years, if applicable, plus the
       accrued receivable for benefit payments not yet billed for the period of July 1,
       2011, through September 30, 2011, less credits due from the public. Benefit
       expense consists of benefits paid and accrued for the period from October 1,
       2010, to September 30, 2011, plus the net change in the actuarial liability for the
       fiscal year.

                                                                                     (continued)
Prepared by KPMG LLP, for the                                                                  11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                         SECTION 1C
          Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
           Accounts Receivable as of September 30, 2011, and Benefit Expense
                         For the Year Ended September 30, 2011

          Benefit payments are intended to provide income and medical cost protection to
          covered Federal civilian employees injured on the job, employees who have
          incurred a work-related occupational disease, and beneficiaries of employees
          whose death is attributable to job-related injury or occupational disease.

b.        Basis of Accounting

          The Schedule has been prepared on the accrual basis of accounting in
          conformity with U.S. generally accepted accounting principles.

          An estimate of claims that have been incurred but not reported are included in
          the actuarial liability. Therefore, the actuarial liability represents the estimated
          present value of future compensation and medical payments based upon
          approved claims, plus a component for incurred but not reported claims.

2.        Actuarial Liability (Future Workers’ Compensation Benefits)

          The Special Benefit Fund was established under the authority of the Federal
          Employees' Compensation Act to provide income and medical cost protection to
          covered Federal civilian employees injured on the job, employees who have
          incurred a work-related occupational disease, and beneficiaries of employees
          whose death is attributable to a job-related injury or occupational disease. The
          fund is reimbursed by other Federal agencies for the FECA benefit payments
          made on behalf of their workers.

          The actuarial liability for future workers’ compensation reported on the Schedule
          includes the expected liability for death, disability, medical and miscellaneous
          costs for approved cases as well as an estimate for those cases incurred but not
          reported. The liability is determined using a method that utilizes historical benefit
          payment patterns related to a specific incurred period to predict the ultimate
          payments related to that period. The actuarial model uses a Paid Loss
          Development Method by agency, by defined agency groups, and in total using
          inflation rate assumptions on both past and future indemnity and medical benefits
          to adjust past data and project forward.
                                                                                (continued)




     12                                                              Prepared by KPMG LLP, for the
                                               U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund



                                              SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2011, and Benefit Expense
                     For the Year Ended September 30, 2011

       Consistent with past practice and as required under U.S. generally accepted
       accounting principles, these projected annual benefit payments have been
       discounted to present value using the Office of Management and Budget's (OMB)
       economic assumptions for 10-year Treasury notes and bonds. The interest rate
       assumptions utilized for discounting were 3.535% in year 1 and 4.025% in
       subsequent years. The use of these spot rates approximates the use of average
       historical rates on marketable Treasury securities with maturities consistent with
       the projected benefit payments.

       To provide more specifically for the effects of inflation on the liability for future
       workers' compensation benefits, wage inflation factors (cost of living allowance or
       COLA), and medical inflation factors (consumer price index-medical or CPI-Med)
       are applied to the calculation of projected future benefits. These factors are also
       used to adjust the historical payments to current year constant dollars. The
       liability is determined assuming an annual payment at mid-year.

       The compensation COLA and the CPI-Med used in the model's calculation of
       estimates were as follows:

                             FY            COLA          CPI-Med

                           2012            2.10%           3.07%
                           2013            2.53%           3.62%
                           2014            1.83%           3.66%
                           2015            1.93%           3.73%
                           2016            2.0%            3.73%
       The medical inflation rates presented represent an average of published
       quarterly rates covering the benefit payment fiscal year. The compensation
       factors presented are the blended FECA-COLA factor rates used by the model
       rather than quarterly rates disclosed in the 2012 Mid-Session Review published
       by OMB.

3.     Net Intra-Governmental Accounts Receivable

       Net intra-governmental accounts receivable balance of $5,318,229 thousand
       represents the total of the amounts billed to Federal agencies through June 30,
       2011, that had not been paid as of September 30, 2011, of $4,425,738 thousand,
       including prior year’s amounts billed, if applicable; plus an accrued receivable
                                                                             (continued)
Prepared by KPMG LLP, for the                                                                  13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                              SECTION 1C
          Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
           Accounts Receivable as of September 30, 2011, and Benefit Expense
                         For the Year Ended September 30, 2011

          for benefit payments not yet billed for the period July 1, 2011, through September
          30, 2011, of $916,366 thousand, less applicable credits due from the Public of
          ($23,875) thousand.      The FECA Special Benefit Fund also receives an
          appropriation for special cases and older cases where employing agencies are
          not charged for benefit payments.

          Each Federal agency is required by the Federal Employees’ Compensation Act
          to include in their annual budget estimate a request for an appropriation in the
          amount equal to the agency cost. Agencies not receiving an appropriation are
          required to pay agency costs from funds directly under their control. In addition,
          certain corporations and instrumentalities are assessed under the Federal
          Employees' Compensation Act for a fair share of the costs of administering
          disability claims filed by their employees. The fair share costs are included in the
          calculation to determine the net intra-governmental accounts receivable.

4.        Benefit Expense
          Benefit expense for the year ended September 30, 2011, was comprised of the
          following (dollars in thousands):

                   Benefits paid for compensation                $ 2,036,985
                   Benefits paid for medical benefits                911,729
                   Change in accrued benefits                         59,395
                   Change in actuarial liability                   1,522,633

                      Total benefit expense                      $ 4,530,742




     14                                                              Prepared by KPMG LLP, for the
                                               U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 22-12-001-04-431
                                                                            Special Report Relating to the
                                                  Federal Employees’ Compensation Act Special Benefit Fund




                       KPMG LLP
                       2001 M Street, NW
                       Washington, DC 20036-3389




                                                 SECTION 2A
                            Independent Accountants’ Report
                          on Applying Agreed-Upon Procedures

Mr. Gary A. Steinberg, Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor
Government Accountability Office, Office of Management and Budget,
and Agencies Specified in Section 2B of this Report:


We have performed the procedures described in Section 2C, Agreed-Upon Procedures
and Results, which were agreed to by the U.S. Department of Labor, U.S. Government
Accountability Office, Office of Management and Budget, and the Agencies specified in
Section 2B of this Report, solely to assist you and such agencies with respect to the
accompanying Schedules of Actuarial Liability by Agency and Net Intra-Governmental
Accounts Receivable by Agency as of September 30, 2011, and Benefit Expense by
Agency for the year ended September 30, 2011, of the U.S. Department of Labor
Federal Employees’ Compensation Act Special Benefit Fund (the Schedules). The U.S.
Department of Labor is responsible for the Schedules (Section 2B).
This agreed-upon procedures engagement was conducted in accordance with
attestation standards established by the American Institute of Certified Public
Accountants and with Government Auditing Standards, issued by the Comptroller
General of the United States.
The sufficiency of these procedures is solely the responsibility of the parties specified in
this report. Consequently, we make no representation regarding the sufficiency of the
procedures described in Section 2C either for the purpose for which this report has
been requested or for any other purpose. The procedures we performed and the
associated results are presented in Section 2C of this report.
We were not engaged to, and did not conduct an examination of the Schedules of
Actuarial Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency,
and Benefit Expense by Agency, the objective of which would be the expression of an
opinion on the Schedules or a part thereof. Accordingly, we do not express such an
opinion. Had we performed additional procedures, other matters might have come to
our attention that would have been reported to you.
                                     KPMG LLP is a Delaware limited liability partnership,
                                     the U.S. member firm of KPMG International Cooperative
                                     (“KPMG International”), a Swiss entity.

Prepared by KPMG LLP, for the                                                                          15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget,
and those Federal agencies with responsibility for the FECA program, and is not
intended to be and should not be used by anyone other than these specified parties.




November 2, 2011




   16                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




                                          SECTION 2B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
                        Schedule of Actuarial Liability by Agency
                               As of September 30, 2011

                                       (dollars in thousands)
                                                                                Actuarial
 AGENCY                                                                         Liability
 Agency for International Development                                             $ 22,175
 Environmental Protection Agency                                                    44,833
 General Services Administration                                                   132,195
 National Aeronautics and Space Administration                                      51,078
 National Science Foundation                                                         1,272
 Nuclear Regulatory Commission                                                       7,245
 Office of Personnel Management                                                     21,713
 U.S. Postal Service                                                           12,218,674
 Small Business Administration                                                      30,630
 Social Security Administration                                                    334,083
 Tennessee Valley Authority                                                        475,090
 U. S. Department of Agriculture                                                   903,734
 U. S. Department of the Air Force                                               1,349,859
 U. S. Department of the Army                                                    1,828,972
 U. S. Department of Commerce                                                      235,982
 U. S. Department of Defense – other                                               794,008
 U. S. Department of Education                                                      16,230
 U. S. Department of Energy                                                         94,065
 U. S. Department of Health and Human Services                                     269,073
 U. S. Department of Homeland Security                                           2,055,225
 U. S. Department of Housing and Urban Development                                  75,875
                                                                                     (continued)
Prepared by KPMG LLP, for the                                                                  17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                         SECTION 2B
                                   U.S. Department of Labor
                         Office of Workers’ Compensation Programs
                 Federal Employees’ Compensation Act Special Benefit Fund
                                 Schedule of Actuarial Liability by Agency
                                        As of September 30, 2011

                                                     (dollars in thousands)


                                                                                                           Actuarial
 AGENCY                                                                                                    Liability
 U. S. Department of the Interior                                                                            $ 747,211
 U. S. Department of Justice                                                                                 1,359,361
 U. S. Department of Labor                                                                                     226,156
 U. S. Department of the Navy                                                                                2,394,057
 U. S. Department of State                                                                                      73,829
 U. S. Department of Transportation                                                                            977,634
 U. S. Department of the Treasury                                                                              558,388
 U. S. Department of Veterans Affairs                                                                        1,890,635
 Other agencies1                                                                                             2,153,282
 Total - all agencies                                                                                      $ 31,342,564




1 Non-billable and other agencies for which OWCP has not individually calculated an actuarial liability.


     18                                                                               Prepared by KPMG LLP, for the
                                                                U.S. Department of Labor—Office of Inspector General
                                                                                   Report Number: 22-12-001-04-431
                                                                                                Special Report Relating to the
                                                                      Federal Employees’ Compensation Act Special Benefit Fund

                                                                     SECTION 2B
                                        U.S. Department of Labor
                              Office of Workers’ Compensation Programs
                      Federal Employees’ Compensation Act Special Benefit Fund
                                              Schedule of Net Intra-Governmental
                                               Accounts Receivable by Agency
                                                  As of September 30, 2011
                                                                 (dollars in thousands)

                                                                                                      Amounts                        Net Intra-
                                                                              Amounts                 Expended         Credits     Governmental
                                                                              Billed Not               Not Yet        Due from       Accounts
AGENCY                                                                       Yet Paid (1)             Billed (2)      Public (3)   Receivable (4)
Agency for International Development                                                 $ 6,889                $ 1,172       ($ 31)          $ 8,030
Environmental Protection Agency                                                          8,506                1,652         (43)             10,115
General Services Administration                                                       27,368                  4,483       (117)              31,734
National Aeronautics and Space
Administration                                                                        11,360                  1,738         (45)             13,053
National Science Foundation                                                                 300                 46           (1)               345
Nuclear Regulatory Commission                                                            1,494                 266           (7)              1,753
Office of Personnel Management                                                           4,398                 711          (19)              5,090
United States Postal Service                                                     1,304,211                  397,412    (10,354)         1,691,269
Small Business Administration                                                            5,086                 783          (20)              5,849
Social Security Administration                                                        52,785                  8,046       (210)              60,621
Tennessee Valley Authority                                                            60,171                 16,278       (424)              76,025
U. S. Department of Agriculture                                                     145,450                  23,510       (613)          168,347
U. S. Department of the Air Force                                                   264,731                  40,965      (1,067)         304,629
U. S. Department of the Army                                                        273,874                  43,502      (1,133)         316,243
U. S. Department of Commerce                                                          23,034                  6,111       (159)              28,986
U. S. Department of Defense – other                                                 186,410                  33,294       (867)          218,837
U. S. Department of Education                                                            3,338                 587          (15)              3,910
U. S. Department of Energy                                                            16,444                  3,043         (79)             19,408

                                                                                                                               (continued)
 1 Amount billed through June 30, 2011 (including prior years) but not yet paid as of September 30, 2011.
 2 Amounts paid and accrued but not yet billed for the period July 1, 2011 through September 30, 2011.
 3 Allocation of credits due from the public through September 30, 2011.
 4 Total amount due to the fund for each agency as of September 30, 2011.

 Prepared by KPMG LLP, for the                                                                                                          19
 U.S. Department of Labor—Office of Inspector General
 Report Number: 22-12-001-04-431
  Special Report Relating to the
  Federal Employees’ Compensation Act Special Benefit Fund

                                                                        SECTION 2B
                                         U.S. Department of Labor
                               Office of Workers’ Compensation Programs
                       Federal Employees’ Compensation Act Special Benefit Fund
                                               Schedule of Net Intra-Governmental
                                                Accounts Receivable by Agency
                                                   As of September 30, 2011

                                                                  (dollars in thousands)

                                                                                                      Amounts                         Net Intra-
                                                                          Amounts                     Expended          Credits     Governmental
                                                                        Billed Not Yet                 Not Yet         Due from       Accounts
AGENCY                                                                      Paid (1)                   Billed (2)      Public (3)   Receivable (4)
U. S. Department of Health and Human
Services                                                                           $ 51,173                  $ 8,488      ($ 221)         $ 59,440
U. S. Department of Homeland Security                                               326,701                  52,283       (1,362)         377,622
U. S. Department of Housing and Urban
Development                                                                           16,102                  2,304          (60)          18,346
U. S. Department of the Interior                                                    118,655                  18,661         (486)         136,830
U. S. Department of Justice                                                         216,473                  35,067         (914)         250,626
U. S. Department of Labor                                                             47,110                  7,991         (208)          54,893
U. S. Department of the Navy                                                        470,435                  75,430       (1,965)         543,900
U. S. Department of State                                                             15,576                  2,768          (72)          18,272
U. S. Department of Transportation                                                  195,148                  32,387         (844)         226,691
U. S. Department of the Treasury                                                    106,808                  17,171         (447)         123,532
U. S. Department of Veterans Affairs                                                366,683                  60,079       (1,565)         425,197
Other agencies                                                                        99,025                 20,138         (527)         118,636
Total - all agencies                                                          $ 4,425,738                 $ 916,366    ($ 23,875)      $ 5,318,229


  1 Amount billed through June 30, 2011 (including prior years) but not yet paid as of September 30, 2011.
  2 Amounts paid and accrued but not yet billed for the period July 1, 2011 through September 30, 2011.
  3 Allocation of credits due from public through September 30, 2011.
  4 Total amount due to the fund for each agency as of September 30, 2011.




        20                                                                                           Prepared by KPMG LLP, for the
                                                                               U.S. Department of Labor—Office of Inspector General
                                                                                                  Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
                         Schedule of Benefit Expense by Agency
                               As of September 30, 2011

                                       (dollars in thousands)

                                                       Benefits Paid
                                                       and Change         Change in        Total
                                                        in Accrued        Actuarial       Benefit
AGENCY                                                    Benefits         Liability     Expense

Agency for International Development                            $ 3,615     ($ 3,860)       ($ 245)
Environmental Protection Agency                                   4,288        (106)         4,182
General Services Administration                                  13,834       (3,136)       10,698
National Aeronautics and Space Administration                     5,780       (4,323)        1,457
National Science Foundation                                        140           (83)           57
Nuclear Regulatory Commission                                      792         (330)           462
Office of Personnel Management                                    2,161        (331)         1,830
United States Postal Service                               1,279,762       1,621,225     2,900,987
Small Business Administration                                     2,376          670         3,046
Social Security Administration                                   26,968       14,788        41,756
Tennessee Valley Authority                                       50,765     (24,268)        26,497
U. S. Department of Agriculture                                  73,912       22,280        96,192
U. S. Department of the Air Force                               136,411       28,408       164,819
U. S. Department of the Army                                    178,171       15,040       193,211
U. S. Department of Commerce                                     24,792       25,747        50,539
U. S. Department of Defense – other                              67,267     (26,699)        40,568
U. S. Department of Education                                     1,764       (1,372)          392
U. S. Department of Energy                                        9,613          748        10,361
U. S. Department of Health and Human Services                    26,772        9,574        36,346
U.S. Department of Homeland Security                            169,311      117,390       286,701
                                                                                        (continued)
Prepared by KPMG LLP, for the                                                                   21
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                         SECTION 2B
                                   U.S. Department of Labor
                         Office of Workers’ Compensation Programs
                 Federal Employees’ Compensation Act Special Benefit Fund
                                  Schedule of Benefit Expense by Agency
                                        As of September 30, 2011

                                                     (dollars in thousands)

                                                                        Benefits Paid
                                                                        and Change               Change in            Total
                                                                         in Accrued              Actuarial           Benefit
AGENCY                                                                     Benefits               Liability         Expense
U. S. Department of Housing and Urban
Development                                                                       $ 8,216              $ 3,586        $ 11,802
U. S. Department of the Interior                                                   60,248                  24,079       84,327
U. S. Department of Justice                                                      112,189                   45,252      157,441
U. S. Department of Labor                                                          20,947                   (338)       20,609
U. S. Department of the Navy                                                     238,336              (69,030)         169,306
U. S. Department of State                                                            7,889                  1,832        9,721
U. S. Department of Transportation                                                 98,432                    880        99,312
U. S. Department of the Treasury                                                   54,703                  14,043       68,746
U. S. Department of Veterans Affairs                                             190,476                   28,371      218,847
Other agencies (1)                                                               138,179            (317,404)         (179,225)
Total - all agencies                                                        $ 3,008,109          $ 1,522,633        $ 4,530,742


1 Non-billable and other agencies for which OWCP has not individually calculated an actuarial liability.




     22                                                                               Prepared by KPMG LLP, for the
                                                                U.S. Department of Labor—Office of Inspector General
                                                                                   Report Number: 22-12-001-04-431
                                                                            Special Report Relating to the
                                                  Federal Employees’ Compensation Act Special Benefit Fund

                                                  SECTION 2C

                                 Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

    Agreed-Upon Procedures Performed                        Results of Procedures

    1) Calculated the actuarial liability as of             The actuarial liability as of September 30,
       September 30, 2011, using KPMG’s                     2011, calculated using KPMG’s Loss
       Loss Development actuarial model1.                   Development       actuarial     model    is
                                                            $30,792,634 thousand.
                                                            .


    2) Recalculated the actuarial liability as              No exceptions were noted as a result of
       of September 30, 2011, using DOL’s                   applying this procedure.
       Loss Development actuarial model2.


    3) Compared DOL’s actuarial liability as                DOL’s actuarial liability as of September
       of September 30, 2011, using DOL’s                   30, 2011, using DOL’s Loss Development
       Loss Development actuarial model to                  actuarial model is $549,930 thousand
       KPMG’s calculation of the actuarial                  (1.75%) greater than KPMG’s calculation
       liability as of September 30, 2011,                  of the actuarial liability as of September 30,
       using KPMG’s Loss Development                        2011, using KPMG’s Loss Development
       actuarial model.                                     actuarial model.




1
  KPMG’s model uses actual data to evaluate trends and project future payments. KPMG’s model also supplements its
methodology with the number of workers related to each agency in injury years 2006 through 2011.
2
  The DOL model uses a Paid Loss Development Method by agency, by defined agency groups, and in total using inflation
rate assumptions on both past and future indemnity and medical benefits to adjust past data and project forward.
Prepared by KPMG LLP, for the                                                                                           23
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 4) Compared DOL’s actuarial liability as        No exceptions were noted as a result of
    of September 30, 2011, using DOL’s           applying this procedure.
    Loss Development actuarial model to
    KPMG’s calculation of the actuarial
    liability as of September 30, 2011,
    using DOL’s Loss Development
    actuarial model. For any identified
    differences, confirmed that DOL
    corrected the difference in DOL’s final
    Loss Development actuarial model by
    agreeing (a) KPMG’s calculation of
    the actuarial liability as of September
    30, 2011, using DOL’s final loss
    development actuarial model to (b)
    the actuarial liability reported in the
    special report.


 5) Compared the interest rate and               No exception was noted in our comparison
    inflation     (COLA,      CPI-Med)           of the interest rate assumption. KPMG’s
    assumptions used by the DOL Loss             model does not use an explicit inflation
    Development actuarial model as of            rate assumption because it does not adjust
    September 30, 2011, to the interest          data to the current level and therefore
    rate and inflation (COLA, CPI-Med)           inflation was implicitly included in the loss
    assumptions used by KPMG’s Loss              development patterns selected.
    Development actuarial model as of
    September 30, 2011.




   24                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 6) Compared the average interest rate             The average interest rate used by the DOL
    and average inflation rate (COLA and           Loss   Development       actuarial  model
    CPI-Med) assumptions used by the               decreased from 4.28% to 4.01% from
    DOL Loss Development actuarial                 September 30, 2010 to September 30,
                                                   2011.
    model as of September 30, 2010, to
    the average interest rate and average          The average COLA rate used by the DOL
    inflation rate (COLA and CPI-Med)              Loss    Development  actuarial   model
    assumptions used by the DOL Loss               increased from 1.91% to 2.01% from
    Development actuarial model as of              September 30, 2010 to September 30,
    September 30, 2011, and reported all           2011.
    differences.
                                                   The average CPI-med rate used by the
                                                   DOL Loss Development actuarial model
                                                   decreased from 3.71% to 3.68% from
                                                   September 30, 2010 to September 30,
                                                   2011.




Prepared by KPMG LLP, for the                                                                   25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 7) Calculated the percentage change in          The actuarial liability increased in the
    the actuarial liability by agency and        aggregate 5.11% from $29,819,932
    in the aggregate from September 30,          thousand as of September 30, 2010, to
    2010, to September 30, 2011, based           $30,792,634 thousand as of September 30,
    on the DOL Loss Development                  2011.
    actuarial model, identified agencies
    whose actuarial liability changed by         The following agencies had a change in
    more than 10 percent during fiscal           actuarial liability from September 30, 2010,
    year 2011, and for such agencies,            to September 30, 2011, of greater than
    calculated the percentage change in          10%. For those agencies, we noted the
    benefit payments for the year ended          following changes in benefit expense from
    September 30, 2010, to September             September 30, 2010, to September 30,
    30, 2011.                                    2011:

                                                          Percentage            Percentage
                                                           change in             change in
                                                   Agency
                                                            actuarial             benefit
                                                             liability           payments
                                                   AID      (14.83%)               4.64%
                                                   USPS      15.30%                9.09%
                                                   COM       12.25%                8.22%




   26                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 8) Compared the interest rate (used for           No exceptions were noted as a result of
    discounting the future liability to the        applying this procedure.
    present value) and inflation rates
    (COLA and CPI-Med) used by the
    DOL Loss Development actuarial
    model as of September 30, 2011, to
    the interest rate (used for discounting
    the future liability to the present
    value) and inflation rates (COLA and
    CPI-Med) published by OMB in the
    Fiscal Year 2011 Mid-Session
    Review and reported all differences.


 9) Compared the actuarial liability, by           No exceptions were noted as a result of
    agency, as of September 30, 2011,              applying this procedure.
    as reported in the Memorandum to
    the CFOs of Executive Departments
    issued by DOL’s Chief Financial
    Officer, to the liability calculated by
    the DOL Loss Development actuarial
    model as of September 30, 2011.




Prepared by KPMG LLP, for the                                                                  27
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 10) Compared both the benefit payments          No exceptions were noted as a result of
     by agency for the chargeback year           applying this procedure.
     ended June 30, 2011, and the
     aggregate benefit payments for the
     chargeback years ended June 30,
     2006 - 2011 used by the DOL Loss
     Development actuarial model, with
     the benefit payments by agency for
     the chargeback year ended June 30,
     2011, and the aggregate benefit
     payments for the chargeback years
     ended June 30, 2006 - 2011, as
     reported     in    the     Summary
     Chargeback Billing Report.




 11) Compared the agency groupings               No exceptions were noted as a result of
     used in the DOL Loss Development            applying this procedure.
     actuarial model as of September 30,
     2011, with the agency groupings
     used in the DOL Loss Development
     actuarial model as of September 30,
     2010.
 .




   28                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results



 Agreed-Upon Procedures Performed                  Results of Procedures

 12) Compared the fiscal year 2011                 The benefit payments calculated by the
     benefit payments calculated by the            2010 DOL Loss Development actuarial
     2010 DOL Loss Development                     model varied by more than 20% and $2
     actuarial model to the actual fiscal          million from the agency’s actual fiscal year
     year 2011 benefit payments from the           2011 benefit payments from the DOL
     DOL Summary Chargeback Billing                Summary Chargeback Billing Report for
     Report and identified agencies where          the following agency.
     the DOL Loss Development actuarial
     model calculated benefit payments                           Percent           Dollar
                                                       Agency
     varied by more than 20% and $2                              variance         Variance
     million from the actual benefit                   COM        68.75%         $10,934,507
     payments made during fiscal year
     2011 from the DOL Summary
     Chargeback Billing Report.




Prepared by KPMG LLP, for the                                                                  29
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


    13) Compared the net effective rates         The net effective rate (interest minus
        (interest minus inflation rates) for     inflation rate 1) for compensation of 2.0%
        compensation and medical used in         used in the DOL Loss Development
        the USPS, OPM, SSA, Energy               actuarial model as of September 30, 2011,
        Employees’       Occupation    Illness   is greater than the net effective rate used
        Compensation Program, and the            for     compensation     in    the    USPS
        Black Lung Disability Trust Fund Loss    development actuarial model, less than the
        Development actuarial models as of       net effective rate used for compensation in
        September 30, 2010, to the net           the Black Lung Disability Trust Fund and
        effective rates for compensation and     SSA social insurance models, and the
        medical used by the DOL Loss             same as the OPM loss development
        Development actuarial model as of        models as of September 30, 2011, as
        September 30, 2011.                      follows:
                                                     - Postal Service 0.6%
                                                     - OPM 2.0%
                                                     - Energy Employees’ Occupation
                                                         Illness Compensation Program (no
                                                         compensation rates included in
                                                         models)
                                                     - Black Lung Disability Trust Fund
                                                         2.59%
                                                     - SSA 2.98%

                                                 The net effective rate (interest rate minus
                                                 inflation rate 2) for medical of 0.33% used in
                                                 the DOL Loss Development actuarial
                                                 model as of September 30, 2011, is
                                                 greater than the net effective rate for
                                                 medical used in the Energy Employees’
                                                 Occupation Illness Compensation Program
                                                 (-1.975%) and Postal Service (-4.8%) loss
                                                 development actuarial models as of
                                                 September 30, 2011.
                                                                                     (continued)

1
COLA
2
CPI-Med
  30                                                                Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

Agreed-Upon Procedures Performed                   Results of Procedures

                                                   The net effective rate (interest rate minus
                                                   inflation rate 2) for medical of 0.33% used in
                                                   the DOL loss development actuarial model as
                                                   of September 30, 2011, is less than the net
                                                   effective rate for medical used in the Black
                                                   Lung Disability Trust Fund (1.72%) social
                                                   insurance model as of September 30, 2011.

                                                   We did not complete this procedure for net
                                                   effective rates for medical used by OPM and
                                                   SSA because the rates were not provided.




2
 CPI-Med
Prepared by KPMG LLP, for the                                                                  31
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


Agreed-Upon Procedures Performed                  Results of Procedures

14) Confirmed gross accounts receivable           Confirmations were received from all
    balances due as of June 30, 2011,             agencies that were sent a confirmation
    from the Liability for Current Federal        request, with the exception of:
    Employees’       Compensation      Act          - U.S. Department of Homeland
    Benefits prepared by the DOL-OCFO                   Security, and
    and posted on the DOL website 3 for all         - U.S. Department of Commerce.
    CFO Act agencies (except DOL) and
    the USPS and compared confirmed               The confirmed gross accounts receivable
    gross accounts receivable balances as         balances as of June 30, 2011, agreed with
    of June 30, 2011, to the amounts              the gross accounts receivable balances as
    posted on the DOL website.                    of June 30, 2011, posted on the DOL
                                                  website, with the exception of Department
                                                  of Health and Human Services that
                                                  reported a difference of $10,237.


15) Compared the net intra-governmental           The variances between the net intra-
     accounts receivable balances by              governmental        accounts   receivable
     Federal agency as reported by the            balances by Federal agency as reported
     OCFO on the Liability for Current            by the OCFO on the Liability for Current
     Federal Employees’ Compensation              Federal Employees’ Compensation Act
     Act Benefits report as of September          Benefits report as of September 30, 2010
     30, 2010, to the net intra-                  and the net intra-governmental accounts
     governmental accounts receivable             receivable balances by Federal agency as
     balances by Federal agency as                reported by the OCFO on the Liability for
     reported by the OCFO on the                  Current          Federal     Employees’
     Liability  for    Current     Federal        Compensation Act Benefits as of
     Employees’      Compensation       Act       September 30, 2011, are identified in
     Benefits report as of September 30,          Exhibit A of this report.
     2011 and reported all differences.



3
http://www.dol.gov/ocfo/media/reports/FECA-Federal-Liability-Q4-2011.pdf
    32                                                                Prepared by KPMG LLP, for the
                                               U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


16) Recalculated the September 30,                 As a result of performing the procedure we
   2011,      net      intra-governmental          noted a difference in net intra-
   accounts receivable balances for                governmental        accounts     receivable
   each agency by adding the fiscal year           balances as of September 30, 2011 of
   2011 bills sent to Federal agencies to          $45,968.
   the prior-year ending balance from
   the prior-year’s Special Report, less
   the current year cash collections as
   reported by the OCFO on the SF-
   224’s, plus the change in the 4th
   quarter unbilled accounts receivable
   from fiscal year 2010 to fiscal year
   2011 reported in the detailed general
   ledger, and less the 2011 change in
   net other credits due from the public
   reported in the detailed general
   ledger.




Prepared by KPMG LLP, for the                                                                  33
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                  Results of Procedures

17) Compared the recalculated September           No exceptions were noted as a result of
    30, 2011, net intra-governmental              applying this procedure.
    accounts receivable balances for each
    agency to the balance reported by the
    OCFO in the Liability for Current
    Federal Employees’ Compensation
    Act Benefits report as of September
    30, 2011, and identified differences
    above 1%.


18) Compared the Summary Chargeback               No exceptions were noted as a result of
    Billing Report for the period July 1,         applying this procedure.
    2010, through June 30, 2011, to the
    bills sent to Federal entities dated July
    31, 2011 and reported all differences.




   34                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


19) Compared the Allocation of Accrued             No exceptions were noted as a result of
    Benefits as of September 30, 2011,             applying this procedure.
    recorded on the OCFO Liability for
    Current     Federal         Employees’
    Compensation Act Benefits report as
    of September 30, 2011, to the accrual
    calculation worksheet prepared by
    DOL, and reported all differences.


20) Compared the fiscal year 2011 4th              The FY 2011 4th quarter accounts
    quarter accounts receivable prepared           receivable prepared by the OCFO and
    by the OCFO and reported on the 4th            reported on the 4th quarter Liability for
    quarter Liability for Current Federal          Current        Federal        Employees’
    Employees’       Compensation       Act        Compensation Act Benefits report was less
    Benefits report to the fiscal year 2011        than the fiscal 2011 4th quarter benefit
    4th quarter benefit payments reported          payments reported on the Summary
    on the Summary Chargeback Billing              Chargeback Billing Report by $29,603.
    Report and reported all differences.




Prepared by KPMG LLP, for the                                                                  35
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                                                      EXHIBIT A
                                                                        Results of Procedure 15

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

                                  Net Intra-Governmental
                    Accounts Receivable as reported by the OCFO on the
        Liability for Current Federal Employees’ Compensation Act Benefits as of
                                    September 30, 2011
                                     (dollars in thousands)


                          Agency                                 2011          2010        Variance
Agency for International Development                              $ 8,030       $ 7,832        $ 198
Environmental Protection Agency                                   10,115         10,232         (117)
General Services Administration                                   31,734         32,074         (340)
National Aeronautics and Space Administration                     13,053         13,615         (562)
National Science Foundation                                           345           340              5
Nuclear Regulatory Commission                                       1,752         1,719              33
Office of Personnel Management                                      5,089         4,823          266
U.S. Postal Service                                            1,691,269     1,508,455       182,814
Small Business Administration                                       5,850         5,865          (15)
Social Security Administration                                    60,621         59,278        1,343
Tennessee Valley Authority                                        76,024         77,395       (1,371)
U.S. Department of Agriculture                                   168,246       168,027           219
U.S. Department of the Air Force                                 304,628       299,731         4,897
U.S. Department of the Army                                      316,243       320,523        (4,280)
U.S. Department of Commerce                                       28,986         44,913      (15,927)
U.S. Department of Defense - other                               218,836       236,555       (17,719)
U.S. Department of Education                                        3,910         3,545          365
U.S. Department of Energy                                         19,408         18,652          756
U.S. Department of Health and Human Services                      59,440         59,368              72
U.S. Department of Homeland Security                             377,622       373,077         4,545
                                                                                      (continued)
   36                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                                                                      EXHIBIT A
                                                                        Results of Procedure 15

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

                                  Net Intra-Governmental
                    Accounts Receivable as reported by the OCFO on the
        Liability for Current Federal Employees’ Compensation Act Benefits as of
                                    September 30, 2011
                                       (dollars in thousands)

                          Agency                                 2011          2010        Change
 U.S. Department of Housing and Urban Development                $ 18,349      $ 17,570         $ 779
 U.S. Department of Interior                                     136,824        135,842              982
 U.S. Department of Justice                                      250,627        243,447         7,180
 U.S. Department of Labor                                          54,892        53,736         1,156
 U.S. Department of Navy                                         543,899        545,670       (1,771)
 U.S. Department of State                                          18,271        18,025              246
 U.S. Department of Transportation                               226,691        227,434         (743)
 U.S. Department of the Treasury                                 123,532        122,563              969
 U.S. Department of Veterans Affairs                             425,197        414,637        10,560




Prepared by KPMG LLP, for the                                                                  37
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results

Agreed-Upon Procedures Performed                 Results of Procedures

21) Compared      the fiscal year 2011           No exceptions were noted as a result of
    benefit payments recorded in the             applying this procedure.
    Integrated     Federal     Employees
    Compensation System (iFECS) and
    Central Bill Pay (CBP) databases as
    of March 31, 2011, and September
    30, 2011, to the fiscal year 2011
    benefit payments reported in the U.S.
    Department of Treasury’s SF-224 as
    of March 31, 2011, and September
    30, 2011, and reported all differences.


22) Performed the following procedures           No exceptions were noted as a result of
    over the reconciliation prepared by          applying this procedure.
    the Office of Workers’ Compensation
    Programs between the benefit
    payments reported in the Chargeback
    Billings Reports for the fiscal year
    ended September 30, 2011, and the
    benefit payments reported in the
    iFECS and CBP databases for the
    fiscal year ending September 30,
    2011:
   A) Compared the benefit expenses in
       the Chargeback Billings Reports
       reported in the reconciliation to the
       actual      Chargeback        Billings
       Reports.
   B) Compared the Benefit payments
       from iFECS and the CBP
       databases      reported     in     the
       reconciliation to the actual iFECS
       and the CBP databases.
   C) Identified differences above 1%.
   38                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


23) Compared compensation and medical             The following agencies had increases over
    bill payments by agency for the fiscal        10% in compensation and medical bill
    year ended September 30, 2011,                payments for the year ended September
    from the Summary Chargeback Billing           30, 2011, compared to the year ended
    Report prepared by DOL, to the                September 30, 2010:
    compensation and medical bill                           Agency        Variance
    payments by agency made for the                          EOP           23.38%
    fiscal year ended September 30,                          NSF           (15.40%)
    2010, from the Summary Chargeback                        OIE           10.17%
    Billing Report prepared by DOL, and
    identified any variances above 10%.           Variances for the remaining agencies were
                                                  10% or less.


24) For a selection of 131 compensation           No exceptions were noted as a result of
    payments        for  initially    eligible    applying this procedure.
    claimants,      compared       beneficiary
    name, beneficiary social security
    number, date of birth, benefit amount,
    payment date, and other unique
    identifiers from the applicable Forms
    CA-1 Federal Notice of Traumatic
    Injury and Claim for Continuation of
    Pay/Compensation, and CA-2 Notice
    of Occupational Disease and Claim
    for Compensation to the beneficiary
    name, beneficiary social security
    number, date of birth, benefit amount,
    payment date, and other unique
    identifiers in iFECS database.




Prepared by KPMG LLP, for the                                                                  39
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


25) For a selection of 136 compensation          No exceptions were noted as a result of
    payments for continuing eligibility and      applying this procedure.
    file      maintenance,        compared
    beneficiary name, beneficiary social
    security, date of birth, benefit amount,
    payment date, and other unique
    identifiers from applicable Forms CA-
    7 Claim for Compensation, and CA-
    1032 Request for information on
    Earnings, Dual Benefits, Dependents
    and Third Party Settlements to the
    beneficiary name, beneficiary social
    security number, date of birth, benefit
    amount, payment date, and other
    unique identifiers in iFECS database.


26) For a selection of 76 medical                No exceptions were noted as a result of
    payments, compared the vendor                this procedure.
    name, date, and other unique
    identifiers from the medical bill and
    payment amount on the summary
    sheet of the Achieve system to the
    vendor name, payment amount, date,
    and other unique identifiers in CBP
    database.


27) Calculated the change in the actuarial       The actuarial liability increased by
    liability from September 30, 2010, to        $1,522,633 thousand on the compilation
    September 30, 2011, as calculated by         reports prepared by DOL from September
    the DOL Loss Development actuarial           30, 2010, to September 30, 2011.
    model.



   40                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


28)Calculated the fiscal year 2011 The calculated annual projected benefit
   projected benefit payments using the payments based on the March 31, 2011
   following two step process:             iFECS    and    CBP databases were
                                           $44,279,970 (1.54%) less than the actual
   (A) Calculated the average benefit 12 month total benefit payments as of
       payment amount per roll during the September 30, 2011, calculated from the
       period of October 1, 2010 to March Summary Chargeback Billing Reports.
       31, 2011, by dividing the total
       medical and compensation benefit
       payments from the iFECS and CBP
       databases by the number of rolls in
       the period from October 1, 2010 to
       March 31, 2011 from the iFECS and
       CBP databases; and

   (B) Multiplied the average benefit
       payment       amount     per    roll
       determined in step 28 (a) above by
       the number of rolls scheduled for
       fiscal year 2011 in accordance with
       the FECA.

   Compared this amount to the actual 12-
   month total benefit payments as of
   September 30, 2011, calculated from
   the Summary Chargeback Billing
   Reports.




Prepared by KPMG LLP, for the
U.S. Department of Labor—Office of Inspector General                                            41
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


29) Compared the fiscal year 2011 4th            The FY 2011 4th quarter benefit expense
    quarter benefit expense estimate             estimate calculated by the OCFO was less
    calculated by the OCFO as reported           than the actual fiscal year 2011 4th quarter
    on the Liability for Current Federal         benefit expense recorded in iFECS and
    Employees       Compensation      Act        CBP databases by approximately $29,603.
    Benefits report to the actual fiscal
    year 2011 4th quarter benefit expense
    recorded in iFECS and CBP
    databases.




   42                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




Appendix




Prepared by KPMG LLP, for the                                                                   43
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



ACRONYMS and ABBREVIATIONS

                ACS                       Affiliated Computer Services
                AID                      Agency for International Development
                AODF                     All Other Defense
                AUP                      Agreed Upon Procedures
                BLS                      Bureau of Labor Statistics
                CBP                      Central Bill Processing System
                CFO Act                  Chief Financial Officers’ Act of 1990
                COLA                     Cost of Living Allowance
                COM                      U.S. Department of Commerce
                CPI-Med                  Consumer Price Index for Medical
                DHS                      U.S. Department of Homeland Security
                DOD                      U.S. Department of Defense
                DOI                      U.S. Department of Interior
                DOJ                      U.S. Department of Justice
                DOL                      U.S. Department of Labor
                DOS                      U.S. Department of State
                DOT                      U.S. Department of Transportation
                EDU                      U.S. Department of Education
                EOP                      Executive Office of the President
                EPA                      Environmental Protection Agency
                ESA                      Employment Standards Administration
                FECA                     Federal Employees' Compensation Act
                HUD                      Department of Housing and Urban Development
                iFECS                    Integrated Federal Employees’ Compensation
                                         System
                LBP                      Liability to Benefits Paid
                NASA                     National Aeronautics and Space Administration
                NCS                      Corp. for National and Community Service
                NRC                      Nuclear Regulatory Commission
                NSF                      National Science Foundation
                OCFO                     Office of the Chief Financial Officer
                OIE                      Other Identified Establishments
                OMB                      Office of Management and Budget
                                                                               (continued)
   44                                                               Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-12-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




ACRONYMS and ABBREVIATIONS

                 OPC                      Office of Peace Corps
                 OPM                      Office of Personnel Management
                 OWCP                     Office of Workers’ Compensation Programs
                 SBA                      Small Business Administration
                 SFFAS                    Statement of Federal Financial Accounting
                                          Standards
                 SMI                      Smithsonian Institution
                 SSA                      Social Security Administration
                 USAID                    U.S. Agency for International Development
                 USDA                     Department of Agriculture
                 USPS                     U.S. Postal Service
                 TREAS                    U.S. Department of the Treasury
                 TVA                      Tennessee Valley Authority




Prepared by KPMG LLP, for the                                                                  45
U.S. Department of Labor—Office of Inspector General
Report Number: 22-12-001-04-431
